HHS/OIG-Audit--"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1992, (A-04-93-04506)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Superfund Financial Activities at the National Institute of Environmental Health Sciences for Fiscal Year 1992," (A-04-93-04506)
August 2, 1994
Complete
Text of Report is available in PDF format (2.63 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of the National Institute of Environmental Health Sciences (NIEHS)
Superfund Financial Activities for Fiscal Year (FY) 1992. Our audit disclosed that NIEHS generally administered the fund
according to Superfund legislation with the exception that NIEHS still does not have procedures to ensure that all Superfund
grantees had obtained independent audits. As a result, the National Institutes of Health and NIEHS were not aware whether
audit requirements were being met. Further, they were not aware whether sanctions needed to be taken for grantees who had
not submitted audit reports. We are recommending that the Public Health Service direct NIH to: (1) establish procedures
to ensure that all Superfund grantees submit audit reports; and (2) sanction grantees who are unwilling to have a proper
audit conducted.